Certification of Word Count
No.
In the

Jgmjrreme (Hour! of tip jptmtefr Stales
Trina R. Patterson, petitioner
V.

Select Portfolio Servicing, Inc.; Quality Loan
Service Corporation; Does inclusive
PETITION FOR WRIT OF CERTIORARI
As required by Supreme Court Rule 33.1(h), I certify that the
document contains 5298 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on 12/5/2019
Curry
^Xurry & Taylor LLC
1726 Nevada Ave NE
St. Petersburg, FL 33703
(202) 350-9073

